Review of Travel Charge Card Delinquencies
Return
to the USDOJ/OIG Home Page
Review of Travel Charge Card Delinquencies
Report Number I-2001-001
March 30, 2001
TABLE OF CONTENTS
MEMORANDUM
BACKGROUND
OVERALL FINDINGS
Management Support
Timely Identification and Referral to Cardholder's Supervisor
Written Feedback to Coordinators
Referral to Higher Levels of Management
Referral to Component Investigative Units
Application of Consistent, Meaningful Disciplinary Action
Headquarters Oversight
Elimination of the Use of Advances by Delinquent Cardholders
Maintaining Updated Information
Controls over ATM Access
Limited Distribution of the Travel Charge Card
Educating Local Coordinators and Cardholders
Conclusion